No.

3fo tfje

Supreme Court of tye ®mteb states
Robert Zabka, et al.
Petitioners,
v.

United States of America and Receiver Timothy L. Bertschy,
Respondents.

Certificate of Service
I hereby certify that I caused service to be made of the corrected
Petition for a Writ of Certiorari pursuant to Supreme Court Rule
29 on March 10, 2020 to the following parties required to be served.
Solicitor General of the
United States
Rm. 5616, Department of Justice
950 Pennsylvania Ave. N. W.
Washington, DC 20530-0001

Brian M. Smith
Attorney for Timothy Bertschy
Heyl Royster Voelker & Allen
301 North Neil Street, Suite 505
Champaign, IL 61820

Service was effected to each party by depositing three copies of
the petition, in an envelope properly addressed and postage prepaid,
into the United States Mail.
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on March 10, 2020.

Robert Zabka
Pro Se Petitioner
18515 Chief Road
Charleston, Illinois 61920-8217
Phone: (217)345-5265
Zabka@live.com

